ROOF                                                    MINE SAFETY AND HEALTH
                                                        ADMINISTRATION

          Office of Inspector General—Office of Audit


Mandate



[


                                                        UNDERGROUND COAL MINE INSPECTION
                                                        MANDATE NOT FULFILLED DUE TO RESOURCE
                                                        LIMITATIONS AND LACK OF MANAGEMENT
                                                        EMPHASIS




                                                                                   Date: November 16, 2007
                                                                          Report Number:   05-08-001-06-001
U.S. Department of Labor                                 November 2007
Office of Inspector General
Office of Audit                                          WHAT OIG FOUND
                                                         MSHA’s Office of Coal Mine Safety and Health
                                                         (CMS&H) did not perform all required inspections
BRIEFLY…                                                 at 107, or 15 percent, of the Nation’s 731
Highlights of Report Number: 05-08-001-06-001,           underground coal mines in Fiscal Year 2006. This
Underground Coal Mine Inspection Mandate Not             occurred because of decreasing inspection
Fulfilled Due to Resource Limitations and Lack of        resources and CMS&H management not placing
Management Emphasis, to the Assistant Secretary          adequate emphasis on ensuring the inspections
for Mine Safety and Health, dated                        were completed.
November 16, 2007.
                                                         CMS&H also could not provide adequate
WHY READ THE REPORT                                      assurance that some critical inspection activities
The Mine Safety and Health Act of 1977 (Mine Act)        required by MSHA policy were performed during
requires the Mine Safety and Health Administration       regular safety and health inspections because 15
(MSHA) to inspect underground coal mines in their        percent of the critical inspection activities we
entirety at least four times per year to safeguard       reviewed were not documented. This occurred
miners. Missed or incomplete inspections                 because CMS&H did not require inspectors to
potentially place miners at risk. It is, therefore,      document all critical inspection activities performed
important that all required inspections are              and Field Office supervisors to document their
performed and all critical inspection activities are     conclusions regarding the thoroughness of the
completed during those inspections. The August           overall inspections.
2007 fatalities at the Crandall Canyon Mine in Utah
underscore the need to continuously improve              For the Crandall Canyon Mine, we found that all
processes that minimize safety and health risks in       seven required regular safety and health
underground coal mines.                                  inspections were performed during FY 2006 and
                                                         FY 2007. However, CMS&H could not provide
WHY OIG CONDUCTED THE AUDIT                              adequate assurance that all critical activities were
The Office of Inspector General (OIG) conducted a        performed during these inspections. Further, one
performance audit of MSHA’s underground coal             inspection was found to be incomplete and
mine inspection process to determine whether             unsatisfactory by the Field Office supervisor, one
MSHA ensured that (1) all underground coal mines         lacked required documentation, and one contained
received the required regular safety and health          misdated documents for critical inspection
inspections and (2) all critical inspection activities   activities, which MSHA could not explain.
required during the inspections were completed.
Subsequent to the fatalities at Crandall Canyon,         WHAT OIG RECOMMENDED
we added the recent safety and health inspections        We made seven recommendations to the Assistant
at that mine to our audit scope.                         Secretary for Mine Safety and Health. Key
                                                         recommendations include ensuring:
READ THE FULL REPORT                                       • inspection resources are commensurate with
To view the report, including the scope,                      mining activity;
methodology, and full agency response, go to:              • CMS&H document all critical inspection
                                                              activities as performed or not applicable;
http://www.oig.dol.gov/public/reports/oa/2008/05-          • Field Office supervisors certify inspections
08-001-06-001.pdf                                             are thorough and complete; and
                                                           • inspection documentation and supervisory
                                                              oversight are reviewed as part of CMS&H’s
                                                              Accountability Program.

                                                         MSHA has initiated or planned corrective action to
                                                         address 5 of our 7 recommendations. MSHA did
                                                         not agree to implement corrective action for 2
                                                         recommendations.
                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 5
     Objective 1 - Did MSHA ensure all underground coal mines receive
        the required regular safety and health inspections?............................................. 6

     Objective 2 - Did MSHA ensure all critical inspection activities required during
        regular safety and health inspections are performed?........................................ 16

Exhibits ........................................................................................................................ 27
     1. FY 2006 Underground Coal Mine Inspection Data............................................... 29

     2. Selected Critical Inspection Activities Reviewed .................................................. 31

     3. FY 2006 Selected Critical Inspection Activities Not Documented ........................ 35

     4. FY 2006 and 2007 Selected Critical Inspection Activities
         Not Documented at Crandall Canyon Mine....................................................... 37

Appendices.................................................................................................................. 39
     A. Background ......................................................................................................... 41

     B. Objectives, Scope, Methodology, and Criteria..................................................... 45

     C. Acronyms and Abbreviations............................................................................... 51

     D. Agency Response to Draft Report....................................................................... 53




                                                                             Underground Coal Mine Inspection Process
                                                                                         Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                                      Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General




Executive Summary
The Federal Mine Safety and Health Act of 1977 (Mine Act), as amended, requires the
Mine Safety and Health Administration (MSHA) to perform inspections of each
underground coal mine in its entirety at least four times per year. MSHA’s primary
means to comply with this statutory requirement is to conduct regular safety and health
inspections.

The Office of Inspector General (OIG) conducted a performance audit of the
underground coal mine inspection process performed by MSHA’s Office of Coal Mine
Safety and Health (CMS&H). The audit objectives were to answer the following
questions:

Objective 1: Did MSHA ensure all underground coal mines receive the
             required regular safety and health inspections?

Objective 2: Did MSHA ensure all critical inspection activities required during
             regular safety and health inspections are performed?

Results

Our audit disclosed that MSHA did not complete one or more statutorily-required
inspections at 107 (15 percent) of the Nation’s 731 underground coal mines during
FY 2006. One hundred and forty-seven (147) total required inspections were not
completed at the 107 mines. MSHA also misstated the number of completed
inspections and required inspections used in calculating the completion rate published
in management reports and on MSHA’s public website. The inspections were not
completed and the number of completed and required inspections were misstated
because (1) decreasing inspection resources during a period of increasing mining
activity made it more difficult to complete the required inspections, and (2) management
did not place adequate emphasis on ensuring the inspections were completed and the
reported completion rate was accurate. Specifically, the number of inspectors assigned
to the 11 CMS&H districts was not commensurate with the mine activity at the districts,
and management’s monitoring of inspection completions was not effective.

Furthermore, MSHA could not provide adequate assurance that critical inspection
activities required by its policy were performed during the inspections completed in
FY 2006. Our review of 21 inspections of active mines disclosed that for the 68
selected inspection activities we tested, 15 percent were not documented as having
been performed because management did not require inspectors to document all critical
inspection activities performed.




                                                      Underground Coal Mine Inspection Process
                                            1                     Report No. 05-08-001-06-001
                                                U.S. Department of Labor – Office of Inspector General


Due to the fatalities at the Crandall Canyon Mine in August 2007, we added it to our
audit sample. 1 We determined that all seven required inspections were completed at
the mine during FYs 2006 and 2007. However, consistent with our original audit work,
we found that 16 percent of the 68 selected critical inspection activities tested for the
seven inspections were not documented as actually having been performed.

Three of the Crandall Canyon Mine inspections we reviewed had significant inspection
and supervisory deficiencies. The FY 2006, Quarter 1 inspections records contained
written feedback to the inspector from the Field Office supervisor that the inspection
was incomplete and unsatisfactory, and the FY 2006, Quarter 4 inspection records did
not contain documentation for six critical inspection activities that CMS&H policy
required to be documented. Some records from the inspection completed before the
August fatalities (FY 2007, Quarter 3) were dated by the inspector about four months
prior to the start of the inspection. One of these was a requirement for the inspector to
evaluate the Roof Control Plan. The inspector could not explain why the forms were
dated before the inspection period.

Because the inspection deficiencies identified in our audit were caused by weaknesses
in policies and procedures, it is likely that similar documentation problems existed in all
11 CMS&H districts. In fact, MSHA found similar inspection and supervisory oversight
problems during internal reviews of three fatal underground mining accidents at the
Sago, Aracoma, and Darby mines. Missed or incomplete inspections place miners at
risk because hazardous conditions in the mines may not be identified and corrected.

CMS&H initiated corrective action to address some of the process weaknesses we
identified. In June 2007, MSHA initiated plans to establish an Office of Accountability to
increase MSHA’s oversight of its accountability and enforcement programs.
Additionally, in July 2007, CMS&H implemented a revised CMS&H General Inspection
Handbook and pilot Inspection Tracking System (ITS) that established new
requirements for conducting and documenting regular safety and health inspections.
Finally, in October 2007, MSHA initiated a new ”100 Percent Plan” to ensure completion
of all required regular safety and health inspections. MSHA has also hired more than
270 new inspector-trainees since July 2006.

Recommendations

We recommended that the Assistant Secretary ensure:

     1. Inspection resources are commensurate with the mining activity in the coal
        districts.
     2. Inspection completions are effectively monitored.


1
  The OIG currently has a separate audit underway to (a) examine MSHA’s approval of mine plans at
Crandall Canyon and (b) determine MSHA’s decision-making process during the rescue efforts following
the August 2007 fatalities.

                                                           Underground Coal Mine Inspection Process
                                                  2                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


     3. Policies and procedures are developed for calculating the regular safety and
        health inspection completion rate and ensuring the inspection data used is
        correct.
     4. Procedures for documenting all critical inspection activities are included in the
        CMS&H General Inspection Handbook and ITS.
     5. All critical inspection activities are documented as performed or not applicable
        at the mines being inspected.
     6. Field Office supervisors certify inspections are thorough and complete.
     7. Inspection activity documentation and supervisory oversight are reviewed as
        part of MSHA’s Accountability Program.

Agency Response

In response to the draft report, DOL’s Assistant Secretary for Mine Safety and Health
disagreed with the accuracy and presentation of some of the audit results and
questioned the audit methodology for assessing the thoroughness of inspections. He
stated that limited enforcement time should be placed primarily on identifying and
abating hazards rather than documentation and paperwork. He explained that MSHA
has hired and is training additional mine inspectors and is rotating inspectors into
understaffed districts to assist in completing all mandatory inspections. He did agree to
make various revisions to MSHA’s policies and guidance in response to several of our
recommendations.

The Assistant Secretary did not agree to document when a critical inspection activity
was not applicable at a mine. As an alternative, he suggested adding a disclaimer
statement to ITS reports. His response did not directly address our recommendation to
require Field Office supervisors to certify inspections are thorough before being counted
as complete.

See Appendix D for the agency’s complete response to our draft report.

OIG Conclusion

The Assistant Secretary generally agreed to take corrective actions in response to our
recommendations. His response stated that MSHA is planning or has initiated
corrective action for Recommendations 1, 2, 3, 4, and 7, but provided a completion
milestone for only Recommendation 4.

For Recommendation 5, we are not convinced that adding a non-specific disclaimer to
the ITS report provides adequate assurance that critical inspection activities were not
missed due to human error or inspection resource limitations.

For Recommendation 6, we do not believe that MSHA’s practice of having Field Office
supervisors initial and date selected inspection records provides adequate assurance
that the overall inspection was thorough.

                                                      Underground Coal Mine Inspection Process
                                            3                     Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                4                     Report No. 05-08-001-06-001
                                                 U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                       Office of Inspector General
                                               Washington, D.C. 20210




                            Assistant Inspector General’s Report


Mr. Richard E. Stickler
Assistant Secretary for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, Virginia 22209-3939

The Office of the Inspector General, Office of Audit, conducted a performance audit of
the regular safety and health inspection process managed by the Mine Safety and
Health Administration’s (MSHA) Office of Coal Mine Safety and Health (CMS&H). While
CMS&H performs inspections at both underground and surface coal mines, this audit
focused only on inspections and oversight activities occurring in FY 2006 related to
underground coal mines. Due to the fatal accidents at the Crandall Canyon Mine in
August 2007, we expanded our scope to include inspection and oversight activity at the
Crandall Canyon Mine in FYs 2006 and 2007. We performed work to address the
following questions:

    1. Did MSHA ensure all underground coal mines receive the required regular safety
       and health inspections?

    2. Did MSHA ensure all critical inspection activities required during regular safety
       and health inspections are performed?

We found that CMS&H should take action to strengthen its inspection process. CMS&H
did not complete a significant number of statutorily-required inspections during FY 2006.
In addition, the inspection completion rate reported to management and the public was
not correct. Finally, CMS&H could not provide adequate assurance that critical
inspection activities required by MSHA policy were performed during inspections.

CMS&H performs inspections to protect miner safety and health and to comply with the
Federal Mine Safety and Health Act of 1997 (Mine Act), as amended. The Mine Act
requires MSHA to perform an inspection of each underground coal mine in its entirety at
least four times per year. MSHA’s primary means to comply with this requirement is to
conduct regular safety and health inspections. 2 These are comprehensive inspections
of coal mines that include reviewing mine records and inspecting specific mining and


2
 MSHA performs approximately 26 other types of inspections. These inspections are generally limited in
scope and focus on specific areas (e.g., roof) or equipment (e.g., electrical) within a mine.

                                                               Underground Coal Mine Inspection Process
                                                   5                       Report No. 05-08-001-06-001
                                             U.S. Department of Labor – Office of Inspector General


environmental conditions (e.g., roof, gas, dust, ventilation, electrical, noise) in all
accessible areas of the mines.

Additional background information is contained in Appendix A.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology, and criteria are detailed in Appendix B.

Results and Findings

Objective 1 - Did MSHA ensure all underground coal mines receive
              the required regular safety and health inspections?

No. CMS&H did not complete one or more statutorily-required inspections at 107 of the
Nation’s 731 (15 percent) underground coal mines during FY 2006. In total, 147
required inspections were not completed at the 107 mines. This occurred because
(1) decreasing inspection resources during a period of increasing mining activity made it
more difficult to complete the required inspections and (2) management did not place
adequate emphasis on ensuring the inspections were completed. Specifically, the
number of inspectors in the 11 CMS&H districts was not commensurate with the mine
activity at the districts, and management’s monitoring of inspection completions was not
adequate. Also, the inspection completion rate published in management reports and
on MSHA’s public website was not correct. This occurred because management had
not established effective procedures for calculating the inspection completion rate and
ensuring the inspection data used to calculate the rate were reliable.

Incomplete or missed inspections place miners at risk because hazardous conditions in
the mines may not be identified and corrected. In FY 2006, approximately 7,500 miners
were employed at the107 mines which did not receive at least one required inspection.
CMS&H took corrective action to address some of the process weaknesses we
identified.

Mine Act Mandates the Number of Underground Coal Mine Inspections

The Mine Act, Section 103 (a), as amended, requires MSHA to perform an inspection of
each underground coal mine in its entirety at least four times per year. MSHA’s primary
means to comply with this requirement is to conduct regular safety and health
inspections. These are comprehensive inspections of an entire coal mine that include
reviewing mine records and inspecting specific mining and environmental conditions
(e.g., roof, gas, dust, ventilation, electrical, noise) in all the accessible areas of the mine.
A detailed description of the inspection process is provided in Appendix A, Background.



                                                        Underground Coal Mine Inspection Process
                                               6                    Report No. 05-08-001-06-001
                                               U.S. Department of Labor – Office of Inspector General


MSHA’s criteria for determining how many inspections are required for each mine
during a year is documented in its Program Policy Manual (February 2003, 103 (a) –
Mandated Inspections). According to the policy, only underground mines that are active
for 45 days each quarter during the year require four inspections. Mines that are
inactive for part of any quarter during the year may require fewer than four inspections.
The specific determination for required inspections for underground mines is based on
the following:

       •   CMS&H assigns a “status” to each mine based on the activity at the mine.
           Mine statuses requiring inspection include Active (coal production), Non-
           Producing Active (no coal production but workers onsite), and Intermittent
           (mine not consistently active). 3

       •   An inspection is required for each quarter that a mine is in an Active or Non-
           Producing Active status for 45 days or more.

       •   An inspection is required for each half of the year (October to March, April to
           September) a mine is in an Intermittent status.

       •   CMS&H does not conduct inspections at mines that are in an Abandoned or
           Temporarily Idle status (no workers onsite).

To illustrate, a mine that was in an Active status for the first three quarters of the fiscal
year and became abandoned 15 days into the fourth quarter would require three
inspections during the year. Conversely, a mine that was in a Temporarily Idle status
during the first three quarters and became Non-Producing Active 15 days into the fourth
quarter would require one inspection during the year.

Based on the above criteria, we tested the mine status dates recorded in MSHA’s
Inspections Database for FY 2006 to identify all required inspections that were not
completed during the year. There were 731 underground coal mines that required
regular safety and health inspections during FY 2006. CMS&H did not complete one or
more required inspections at 107 of the 731 underground mines, or 15 percent. In total,
147 required inspections were not completed at the 107 mines. Table 1 summarizes
our test results by district.




3
 MSHA assigns or changes mine statuses based on information provided by the mine operator or
determined by MSHA during mine visits.

                                                          Underground Coal Mine Inspection Process
                                                 7                    Report No. 05-08-001-06-001
                                              U.S. Department of Labor – Office of Inspector General


                                            Table 1

                       147 Required Inspections Were Missed at 107
                                Underground Coal Mines
                                        (FY 2006)

                                          Number of      Mines Missing           Number of
                                         Underground      One or More         Inspections Not
           CMS&H District                   Mines          Inspection           Completed
 1 (Anthracite coal regions in PA)           21                 1                    1
 2 (Bituminous coal regions in PA)           47                 0                    0
 3 (MD, OH, Northern WV)                     50                 3                    3
 4 (Southern WV)                             165               85                   125
 5 (VA)                                      97                 0                    0
 6 (Eastern KY)                              176                5                    5
 7 (Central KY, NC, SC, TN)                  97                 0                    0
 8 (IL, IN, IA, MI, MN, Northern MO,         25                 8                    8
 WI)
 9 (All States west of the Mississippi       28                  4                     4
 River, except MN and Northern MO)
 10 (Western KY)                             15                  0                     0
 11 (AL, GA, FL, MS, PR, VI)                 10                  1                     1

                                Totals       731                107                   147

As can be seen in the table, the most significant deficiencies occurred in District 4
(Southern West Virginia). Two or more required inspections were not completed at 37
mines in District 4 as follows:

       •   At 30 mines, two of the four required inspections were not completed.

       •   At three mines, three of the four required inspections were not completed.

       •   At two mines, two of the three required inspections were not completed.

       •   At two mines, two of the two required inspections were not completed.

CMS&H was not in compliance with the Mine Act for the 147 missed inspections.
Missed inspections place miners at risk because hazardous conditions in the mines are
not identified and corrected. In FY 2006, approximately 7,500 miners were employed at
the107 mines which did not receive one or more required inspection.

Reasons Inspections Were Not Completed

We determined that the required inspections were not completed because
(1) decreasing inspection resources during a period of increasing mining activity made it

                                                         Underground Coal Mine Inspection Process
                                               8                     Report No. 05-08-001-06-001
                                                 U.S. Department of Labor – Office of Inspector General


more difficult to complete the required inspections and (2) management did not place
adequate emphasis on ensuring the inspections were completed. According to MSHA,
inspector resource limitations affected their ability to complete all the required
inspections in FY 2006. They said that the year was an aberration with the three
accidents at the Sago, Aracoma and Darby mines and the resulting accident
investigations and internal reviews. The accident investigations and internal reviews
were sometimes concurrent and required separate teams with many of the team
members coming from CMS&H. Management also said other factors affected
inspection completions over the last few years. They noted the lack of MSHA funding to
hire or fill vacancies, the resulting dwindling manpower resources, and additional
inspection requirements and initiatives as a result of the accidents and new rulemaking
required by the Mine Improvement and New Emergency Response Act of 2006 (MINER
Act).

Inspection Resource Limitations Impacted Inspection Completions

We reviewed inspection resource levels and mining activity from FYs 1997 to 2006 and
found that, while the number of CMS&H inspectors relative to mining activity increased
from FYs 1997 to 2001, the relative number of inspectors decreased significantly
between FYs 2002 and 2006. We quantified mining activity by the number of
Mechanized Mining Units (MMU) that were in operation at each year end. A MMU is a
major piece of mining equipment used for the extraction of coal. 4 Larger mines
generally have more MMUs and require more time and/or inspectors to complete the
inspections. Table 2 shows that as MMUs increased from FYs 2002 to 2006 by nine
percent, inspectors decreased by 18 percent, causing the ratio of inspectors per MMU
to decrease by 25 percent from a high of .75 in FY 2002 to a low of .56 in FY 2006.




4
 CMS&H management reports use the number of MMUs as an indicator of mining activity. Examples of
MMUs include a Continuous Miner, a machine that constantly extracts coal while it loads it, and a
Longwall Miner, which pulls a steel plow or rotation drum mechanically back and forth across a face of
coal that is usually several hundred feet long.

                                                            Underground Coal Mine Inspection Process
                                                   9                    Report No. 05-08-001-06-001
                                            U.S. Department of Labor – Office of Inspector General


                                          Table 2

                      Inspectors per MMU Decreased 25 Percent
                                from FYs 2002 to 2006

                                                                Inspectors per
                 FY          Inspectors        MMUs                  MMU
                2002            605             811                  0.75
                2003            565             781                  0.72
                2004            563             842                  0.67
                2005            512             851                  0.60
                2006            496             882                  0.56
               Percent       18 percent      9 percent            25 percent
               Change         Decrease       Increase              Decrease

The decrease in the ratio of inspectors per MMU supports management’s assertion that
resource limitations made it difficult to complete all the required inspections, and that
any unplanned inspector activities (e.g., accident investigations, internal reviews) further
compounded the problem.

CMS&H’s appropriated funding to cover labor costs contributed to the inspection
resource limitation. During FYs 2002 though 2006, CMS&H labor costs increased due
to mandated cost of living salary increases from $78.8 million to $84.9 million, or
7.7 percent; however, appropriated funding did not rise with the mandated increases.
CMS&H’s total appropriated funding increased from $116.1 million to $117.2 million, or
less than 1.0 percent. As a result, MSHA did not have sufficient funding to replace
personnel that left the Agency. As previously noted, during this same period the
number of MMUs increased by 8 percent, indicating an increase in coal mining activity.

Lack of Management Emphasis to Ensure Inspection Completions

CMS&H’s missed inspections were also caused by management not placing adequate
emphasis on ensuring the inspections were completed. The lack of management
emphasis resulted in three inspection process weaknesses:

       •   The number of inspectors in the 11 coal districts was not commensurate with
           the mine activity at the districts.

       •   Management’s monitoring of inspection completions was not effective.

       •   The inspection completion rate published in management reports and on
           MSHA’s public website was not correct.

The number of MMUs covered by inspectors varied significantly, with some districts
having a much higher workload (as defined by number of inspectors per MMU). The
districts with the greatest workloads generally had the highest number of required

                                                       Underground Coal Mine Inspection Process
                                             10                    Report No. 05-08-001-06-001
                                              U.S. Department of Labor – Office of Inspector General


inspections not completed. This was especially true in District 4, where 125
(85 percent) of the 147 total missed inspections occurred. Table 3 shows that the ratio
of inspectors per MMU was significantly lower in District 4 as compared to the other coal
districts.

                                            Table 3

           Inspectors per MMU Ratio was Significantly Lower in District 4
                                    (FY 2006)




          CMS&H District                 Inspectors      MMUs          Inspectors per MMU
 1 (Anthracite coal regions in PA)           15            15                  1.00
 2 (Bituminous coal regions in PA)           46            68                  0.68
 3 (MD, OH, Northern WV)                     50            75                  0.67
 4 (Southern WV)                             89           203                  0.44
 5 (VA)                                      51            89                  0.57
 6 (Eastern KY)                              76           148                  0.51
 7 (Central KY, NC, SC, TN)                  54           102                  0.53
 8 (IL, IN, IA, MI, MN, Northern MO,
 WI)                                        35              67                   0.52
 9 (All States west of the Mississippi
 River, except MN and Northern MO)          38              49                   0.78
 10 (Western KY)                            22              42                   0.52
 11 (AL, GA, FL, MS, PR, VI)                20              24                   0.83

                            Averages        45              80                   0.64

The ratios ranged from the low of .44 inspectors per MMU in District 4 to the high of
1.00 inspector per MMU in District 1. This represented a 127 percent variance between
the low and high districts. The average ratio for all 11 coal districts was .64 inspectors
per MMU, 45 percent higher than District 4.

District 4 was CMS&H’s largest district based on the number of MMUs operating at the
end of FY 2006. However, the relatively lower inspection resources provided to
District 4, combined with the district’s high rate of inspections not completed, strongly
suggests that inspection resources were not commensurate with the mine activity in that
district.

Management Monitoring was not Adequate

CMS&H management’s monitoring of inspection completions also contributed to the
missed inspections. Quarterly reports submitted by the districts to CMS&H
headquarters were not used effectively to ensure compliance with the Mine Act. Since
April 2003, each of the 11 CMS&H districts was required to submit a quarterly status

                                                         Underground Coal Mine Inspection Process
                                               11                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


report, titled Inspection Completion Rates, to CMS&H headquarters. CMS&H policy
(Memo No. HQ-030-034) required the reports to include the required inspections not
completed during the quarter, an explanation as to why each was not completed, and
the corrective action needed to prevent future missed inspections. According to
management, they reviewed the reports to ensure required inspections were completed.
Districts not completing the required inspections were to be provided assistance from
inspectors assigned to other districts.

We reviewed the quarterly Inspection Completion Rates reports provided to CMS&H
headquarters during FY 2006 to determine compliance or whether the reports could be
improved for oversight purposes. We found that the districts submitted incomplete or
inconsistent information as follows:

      •   The corrective action needed to prevent future missed inspections was not
          provided as required by the seven districts that had not completed all their
          inspections (Districts 1, 3, 4, 6, 8, 9, 11).

      •   District 4 reported reasons inspections were missed in general with no
          reference to specific mines. The other districts referenced specific mines as
          required.

      •   All districts reported quarterly completion rates. However, neither the districts
          nor headquarters calculated year-to-date or year-end inspection completion
          rates for underground coal mines. Although not required, adding cumulative
          completion rates for the year-to-date and the supporting number of completed
          and required inspections to the report would assist CMS&H to ensure
          compliance.

Without complete and consistent information, headquarters had limited assurance that
all missed inspections were reported and that corrective actions were identified and
implemented. District staff provided the following causes for missed inspections on the
quarterly reports: inadequate inspection resources, miscommunication, late inspection
paperwork, and staff meetings. The quarterly reports did not include explanations as to
whether these causes were considered acceptable or whether corrective action to
eliminate these causes was needed. Additionally, CMS&H headquarters was not able
to demonstrate that it used the quarterly reports to address the noted causes or to
assign district resources.

Reported Inspection Completion Rate was not Correct

We also found that inspection data used for management analysis and reported on
MSHA’s public website were not correct. Management and public reporting included a
single inspection completion rate that included both surface and underground coal
mines. The completion rate was reported in a CMS&H electronic report – referred to as
a Digital Dashboard – that management could access as needed. The completion rate



                                                      Underground Coal Mine Inspection Process
                                            12                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


was also reported on MSHA’s website. The website provided the public with fact sheets
detailing significant trends in the mine industry and MSHA enforcement.

Our audit, which looked only at underground coal mines, showed that the portion of this
published rate that dealt with underground coal mines was incorrect. As a result, the
published completion rate that combined underground and surface mine inspections
was also incorrect.

CMS&H generated a report for us that showed 2,231 inspections were completed at
underground coal mines out of 2,310 required inspections. Based on our testing, we
found:

      •   CMS&H counted only inspections for mines that were in an active status at
          the end of the fiscal year. Completed and required inspections for mines that
          were active part of the year but inactive at the end of the year were not
          counted. This understated completed and required inspections by 302 and
          311 inspections, respectively.

      •   Inspections that were started and then cancelled by District 4 were entered in
          CMS&H’s Inspections Database as completed inspections. This overstated
          completed inspections by 51 inspections.

      •   Inspections started in Districts 4 and 6 were counted as completed even
          though the inspectors visiting the mines found that the mines were not active
          and inspections were not required. This overstated completed inspections by
          22 inspections.

      •   Three inspections that were not required and one limited scope inspection
          were counted as a regular safety and health inspection. This overstated
          completed inspections by 4 inspections.

Inaccurate reporting impacts oversight and enforcement decisions. The United States
Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government require, in part, the following:

      •   Activities need to be established to monitor performance measures and
          indicators. Control activities help to ensure that all transactions are
          completely and accurately recorded.

      •   For an entity to run and control its operations, it must have relevant, reliable
          and timely communications relating to internal as well as external events.

Crandall Canyon Mine

The Crandall Canyon Mine was in an Active status for the seven quarters preceding the
mine closure in the fourth quarter of FY 2007. As such, four inspections were required

                                                      Underground Coal Mine Inspection Process
                                            13                    Report No. 05-08-001-06-001
                                          U.S. Department of Labor – Office of Inspector General


in FY 2006 and three were required in FY 2007. District 9 inspection records for
Crandall Canyon Mine showed that each of the required inspections was completed
(see p. 20 for a discussion of the thoroughness of the inspections).

Action Initiated to Address Inspection Resource Limitations

MSHA has taken action to address the resource limitations that contributed to CMS&H’s
missed inspections in FY 2006, including:

      •   In October 2007, MSHA initiated a new “100 Percent Plan” to ensure
          completion of all required regular safety and health inspections. The new
          plan provides for the temporary reassignment of MSHA inspectors to areas
          where they are most needed and for increased overtime to complete
          inspections.

      •   MSHA hired more than 270 new inspector-trainees since July 2006.

      •   MSHA requested additional funding in the FY 2008 budget for 244 more
          MSHA personnel.

Recommendations

We recommend the Assistant Secretary for MSHA ensure all underground coal mines
receive the statutorily-mandated inspections required by the Mine Act. The corrective
action should ensure:

          1. Inspection resources are commensurate with the mining activity in the coal
             districts. This includes evaluating the impact of the additional inspectors
             hired since July 2006 and the “100 Percent Plan’” and if necessary,
             implementing additional steps to complete all mandatory inspections.

          2. Inspection completions are effectively monitored. This includes enforcing
             the district quarterly Inspection Completion Rates report content
             requirements (Memo No. HQ-030-034) and developing the report to
             include additional information, such as cumulative year-to-date completion
             rates and the related number of completed and required inspections. An
             internal control should be developed to ensure deficiencies noted in the
             reports are addressed.

          3. Policies and procedures are developed for calculating the regular safety
             and health inspection completion rate and ensuring the inspection data
             used is correct.




                                                     Underground Coal Mine Inspection Process
                                           14                    Report No. 05-08-001-06-001
                                          U.S. Department of Labor – Office of Inspector General


Agency Response

For recommendation 1, MSHA implemented the “100 Percent Plan” during the audit to
ensure the agency has the necessary resources to fully enforce the inspections
mandated in the Mine Act. MSHA hired 273 enforcement personnel since July 2006
and has 257 trainees on board as of September 2007. However, the trainees are
unable to independently inspect coal mines or issue enforcement actions until they
complete formal training and receive authorization from the Secretary of Labor. In order
to bridge this gap, MSHA is rotating inspectors into understaffed districts for two week
intervals to assist in completing all mandated inspections. MSHA has also approved
overtime and alternative schedules to facilitate inspection completions.

MSHA, however, stated in its response that the OIG failed to acknowledge in this report
that the majority (70 percent) of the incomplete mandatory inspections were at mines
that were either non-producing, inactive, intermittent, or abandoned during the
inspection period; and that miners were not placed at risk at mines that were inactive or
abandoned. MSHA also stated that there are logistical problems and resource issues
involved in completing inspections at intermittently active mines. Further, MSHA stated
that there were incomplete inspections noted in our report for mines that had already
received four mandatory inspections.

For recommendation 2, MSHA stated it will revise instructions to strengthen the
requirements of the district Inspection Completion Rates reports submitted to
headquarters. This includes an explanation of missed inspections by mine and the
corrective action taken to achieve completion. The district reports will be used in
conjunction with detailed reports generated from MSHA’s computer system which
include cumulative year-to-date completion rates and the related number of completed
and required inspections. Additionally, MSHA’s new Office of Accountability will ensure
this management control is fully implemented and monitored and inspections are
completed according to MSHA policy.

For recommendation 3, MSHA stated it will issue policies and procedures for
documenting inspections that are closed before being completed and those that occur
where the mine is abandoned prior to any meaningful inspection activity. Policies and
procedures will also be developed to document the process for calculating the
inspection completion rate. According to MSHA, “key indicator” reports are already in
use or under development to assist oversight of inspection data and completion rates.

OIG Conclusion

Recommendation 1 is unresolved pending receipt of the MSHA policy implementing the
“100 Percent Plan” and MSHA’s plans to evaluate the impact of the “100 Percent Plan”
and the additional inspectors hired since July 2006. We acknowledge MSHA for
implementing corrective action during the audit. However, MSHA made assertions in its
response that were not correct. MSHA stated in its response that our report failed to
acknowledge that the majority (70 percent) of the incomplete mandatory inspections

                                                     Underground Coal Mine Inspection Process
                                           15                    Report No. 05-08-001-06-001
                                            U.S. Department of Labor – Office of Inspector General


were at mines that were non-producing, inactive, intermittent, or abandoned during the
inspection period. This statement was incorrect and misleading.

The majority of the missed inspections identified in our audit (105 of 147; 71 percent)
were at mines that were in an Active status for the entire inspection period. The
remaining missed inspections (42 of 147; 29 percent), were at mines in an Active, Non-
Producing Active, or Intermittent status for all or most of the inspection period. Each of
these statuses indicates that workers were on site and therefore, subject to safety and
health risks. In only eight of the missed inspection cases was the mine in an
abandoned or temporarily idle status for any part of the inspection period. In every
case, the abandoned or temporarily idle status accounted for less than half of the
inspection period. Therefore, MSHA’s policy required a regular safety and health
inspection to be performed.

MSHA also incorrectly stated that our report included incomplete inspections for mines
that had already received four mandatory inspections. None of the 147 missed
inspections we reported on were for mines that had already received four mandatory
inspections.

Recommendation 2 is unresolved pending receipt of the (1) revised instructions to
strengthen the district Inspection Completion Rates reports, (2) Office of Accountability’s
plans to ensure full implementation and monitoring of the district Inspection Completion
Rates reports, and (3) Office of Accountability’s plans to ensure inspections are
completed according to MSHA policy.

Recommendation 3 is unresolved pending receipt of the (1) policies and procedures for
documenting inspections that are closed before being completed and those that occur
where the mine is abandoned prior to any meaningful inspection activity, (2) policies
and procedures for calculating the inspection completion rate, and (3) “key indicator”
reports in use or being developed to assist oversight of inspection data and completion
rates.


Objective 2 – Did MSHA ensure all critical inspection activities required during
              regular safety and health inspections are performed?

No. MSHA cannot provide adequate assurance that statutorily-required inspections of
underground coal mines for FY 2006 were thoroughly conducted. A significant number
of critical inspection activities were not documented at the two coal districts (Districts 4
and 6) reviewed for this audit objective. As such, MSHA could not ensure that critical
inspection elements were actually performed and the overall inspection was thorough.
Inspections that are not thorough place miners at risk because hazardous conditions in
the mines may not be identified and corrected.

CMS&H policy did not require inspectors to document all critical inspection activities
performed or not applicable at each mine. Furthermore, when documentation was


                                                       Underground Coal Mine Inspection Process
                                             16                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


required, Field Office supervisors did not consistently ensure the required
documentation was completed. Finally, Field Office supervisors were not required to
certify that the overall inspection was thorough. Supervisors generally ensured critical
inspection activities were performed by initialing inspector notes describing such
activities. However, the supervisors generally did not certify that the overall inspection
was thorough.

Because these are weaknesses in policies and procedures, it is likely that similar
problems exist in all CMS&H districts. In fact, MSHA found similar inspection and
supervisory oversight problems during internal reviews of three fatal underground
mining accidents that occurred in FY 2006. The Internal Review reports on the Sago
(District 3), Aracoma (District 4) and Darby (District 7) mine accidents were published in
June 2007. MSHA reported that inspection activities were not performed or well
documented at each of the three mines and supervisory oversight was not well
documented at two of the mines.

Critical Regular Safety and Health Inspection Activities were not Documented

The Mine Act and MSHA policy (e.g., inspection and supervisor handbooks) require
inspectors to ensure miner safety by conducting thorough inspections of underground
mines. Both general and specific inspection activities are noted as required in each of
these criteria. However, neither the Mine Act nor MSHA policy prescribed a
comprehensive list of critical inspection activities to be performed and documented
during an inspection. We reviewed the criteria and interviewed CMS&H management
and staff at headquarters and Districts 4 and 6 to develop a list of critical inspection
activities for testing purposes. Our list was not intended to identify every inspection
activity that should be performed and documented during an inspection. See Exhibit 2
for the 68 selected inspection activities used for our testing.

We reviewed a judgmental sample of 21 of the 1,141 regular safety and health
inspections completed at active mines in Districts 4 and 6 during FY 2006. We
determined whether documentation existed in the inspection files to support that the 68
selected inspection activities were completed or not applicable at the mines. For the 21
inspections tested, 15 percent of the 68 selected activities tested were not documented
as having been performed. MSHA policy did not require documentation for forty-six of
the 68 selected inspection activities tested. See Exhibit 3 for a summary of our test
results.

Field Office supervisors or others independently reviewing the inspection files could not
effectively ensure the critical inspection activities were performed as required and that
the overall inspection was thorough. Our test results show that a significant number of
selected critical inspection activities were not adequately documented. Inspections that
are not thorough place miners at risk because hazardous conditions in the mines are
not identified and corrected. The five critical inspection activities that were not
adequately documented most frequently were:



                                                      Underground Coal Mine Inspection Process
                                            17                    Report No. 05-08-001-06-001
                                                  U.S. Department of Labor – Office of Inspector General


        •   Dust: Collect a full-shift dust sample from the working environment from each
            designated work position (15 Inspections).

        •   Electrical: Inspect underground high-voltage circuits (14 Inspections).

        •   Electrical: Inspect trolley and direct-current circuits (14 Inspections).

        •   Impoundments: Evaluate operator’s records of impoundment examinations
            per 30 CFR 216-3 and compare to actual impoundment conditions in the mine
            (14 Inspections).

        •   General: Inspect on weekend if coal produced on weekend (13 Inspections).

Inadequate Documentation Caused by Weaknesses in Policies and Procedures

CMS&H policy did not require inspectors to document all critical inspection activities
performed or not applicable at the mines. See Exhibit 2 for the 68 selected critical
inspection activities tested. Of the 68 selected inspection activities tested, 46, or
68 percent, did not require documentation. Examples of critical inspection activities that
did not require documentation include:

        •   General: Inspect the escapeways (including facilities) and communication
            installations (working sections).

        •   Roof: In every working place of a mine, inspect roof and rib conditions.

        •   Gas: Test for methane and for oxygen deficiency.

        •   Ventilation: Inspect all ventilation facilities.

        •   Dust: Conduct a full shift dust sampling of at least five occupations, which will
            include Designated Occupations if applicable on each MMU.

        •   Electrical: Inspect Underground High-Voltage Circuits.

        •   Noise: Conduct a full-shift sample from a representative number of outby 5
            areas of an underground mine where high levels of noise may exist.

Furthermore, when documentation was required, Field Office supervisors did not
consistently ensure the required documentation was completed. The number of critical
inspection activities that were not documented averaged about three, or 14 percent of
the 22 inspection activities requiring documentation. See Exhibit 3 for a summary of the


5
 Outby – from any point in the mine, the direction nearer to the mine entrance and farther from the
working face.

                                                              Underground Coal Mine Inspection Process
                                                   18                     Report No. 05-08-001-06-001
                                            U.S. Department of Labor – Office of Inspector General


audit test results for selected critical inspection activities that were not documented as
required.

The five selected inspection activities that most frequently were not documented as
required were:

       •   Dust: Sample intake air at MMUs where Designated Areas have not been
           established and diesel-powered haulage equipment is in use (11 Inspections).

       •   Dust: Collect a full-shift sample from the environment of each miner if
           applicable (11 Inspections).

       •   Ventilation: If diesel equipment is being operated, measure airflow quantity
           and tests for carbon monoxide and nitrogen dioxide (11 Inspections).

       •   General: Conduct a rock dust survey within 50 feet of the section dumping
           point on each advancing active section of the mine (8 Inspections).

       •   Dust: At least twice during the sampling shift, verify that all dust control
           parameters stipulated in the approved Ventilation Plan are in place and
           functioning properly. These checks will be initiated at least at the beginning
           and between the 4th and 5th hours of operation (8 Inspections).

Field Office supervisors did not consistently certify that the inspections were thorough.
In FY 2006, District 4 tested a pilot Inspection Tracking System (ITS) that listed required
inspection activities and required Field Office supervisors to sign a certification that they
considered the inspection to be thorough and complete. The inspection files for the
eight District 4 inspections included in our testing included such a certification. When
the pilot ITS was not used, Field Office supervisor certification was not required nor
completed.

Inspection and Supervisory Oversight Problems Identified During Internal Reviews

MSHA found similar inspection and supervisory oversight problems during its internal
reviews of three fatal underground mining accidents that occurred in FY 2006. MSHA’s
Internal Review reports on the Sago (District 3), Aracoma (District 4), and Darby
(District 7) mine accidents were published in June 2007. MSHA reported that inspection
activities were not performed or well documented at each of the three mines, and
supervisory oversight problems existed at two of the mines. Over two-thirds of the 68
selected critical inspection activities we tested for documentation were noted as
inspection deficiencies in at least one of the three internal reviews. Thirteen were noted
in at least two internal reviews. Internal review report recommendations included:

       •   Supervisors should closely review individual inspection reports to immediately
           identify and correct procedural deficiencies, such as lapses in properly
           inspecting and documenting all items and areas required to be inspected

                                                       Underground Coal Mine Inspection Process
                                             19                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


          during regular safety and health inspections.

      •   The District manager should require inspectors to incorporate tracking maps
          to ensure all areas of the mine have been surveyed.

      •   Supervisors should visit each mine annually during an ongoing regular safety
          and health inspection to determine if inspection activity is effective and
          consistent with conditions in the mines.

The first two of these MSHA recommendations called for better documentation.

Crandall Canyon Mine

We performed the same tests on the four inspections completed at the Crandall Canyon
Mine during FY 2006 and the three inspections completed at the mine during FY 2007.
Similar to Districts 4 and 6, MSHA could not provide adequate assurance that these
seven inspections were thoroughly conducted. The number of critical inspection
activities that were not documented as performed averaged about 11, or 16 percent of
the 68 selected critical inspection activities tested. For additional test results, see
Exhibit 4.

Three inspections in particular had significant inspection and supervisory deficiencies.

      Incomplete and Unsatisfactory Inspection

      For the FY 2006, Quarter 1 inspection (October 3, 2005 through December 28,
      2005), 18 of the 68 (26 percent) selected critical inspection activities tested were
      not documented as performed. In fact, written feedback provided to the inspector
      by his Field Office supervisor indicated that the inspection as a whole was
      incomplete and unsatisfactory. Specific inspection deficiencies noted by the
      supervisor included performing limited work (e.g., observing work practices,
      sampling dust) on shifts other than day shift, not performing root cause analysis
      for citations, not ensuring mine and electrical maps were being kept up to date,
      and not reviewing training records. We found no evidence in the inspection
      records that the deficiencies noted by the supervisor were corrected through
      additional inspection work for this inspection period. The Field Office supervisor
      provided the feedback to the inspector 22 days after the inspection was
      completed.

      Lack of Required Documentation

      For the FY 2006, Quarter 4 inspection (July 5, 2006 through September 22,
      2006), 21 of the 68 (31 percent) selected critical inspection activities tested were
      not documented as performed. This included six inspection activities where
      documentation was required by CMS&H policy. Foremost among the six was the
      lack of documentation supporting adequate supervisory review. The Field Office


                                                      Underground Coal Mine Inspection Process
                                            20                    Report No. 05-08-001-06-001
                                                  U.S. Department of Labor – Office of Inspector General


       supervisor’s initials on inspection records (e.g., daily cover sheets, enforcement
       actions) were not dated as required. Therefore, we were not able to determine
       whether the supervisory review occurred before or after the inspection was
       completed. Correcting inspection deficiencies after inspections have been
       completed is difficult because the inspectors are likely assigned to other mines.
       The remaining five critical inspection activities that were not documented as
       required relate to the effectiveness of dust parameters in the ventilation plan and
       dust sampling (see Exhibit 2, Section 1, inspection activities number 10, 11, 14,
       15, and 16).

       Documents with Questionable Dates

       For the FY 2007, Quarter 3 inspection (May 30, 2007 through July 2, 2007), the
       documentation indicated that supervisory oversight was neither adequate nor
       timely. This was the last statutorily-required inspection completed at the mine
       before the August 2007 fatalities. The documents supporting that five inspection
       activities were performed were dated by the inspector about four months prior to
       the May 30 start of the inspection. The Field Office supervisor reviewing and
       initialing the records for this inspection did not identify the questionable dates and
       initiate corrective action. Additionally, the majority of the inspection records were
       reviewed by the Field Office supervisor on July 11, 2007, nine days after the
       inspection was completed. Table 4 shows the specific inspections activities that
       were dated prior to the May 30 start date of the inspection.

                                              Table 4

     Inspection Activities Dated Prior to the May 30 – July 2, 2007, Inspection
                 Crandall Canyon FY 2007, Quarter 3 Inspection

Inspection Activity                                  Inspection Deficiency
Review the Roof Control Plan and evaluate            The date on the form used to document this
the plan by making onsite observations of the        activity was written as “02 Feb 07.”
plan’s effectiveness.
List record books checked and areas of               The dates on two separate Daily Cover Sheets
inspection activity.                                 used to document these activities were written
                                                     as “27 Jan 07” and “02 Feb 07”.
Inspect blasting practices in working sections,      The date on the form used to document this
if applicable.                                       activity was written as “02 Feb 07”. The date
                                                     was altered to “02 Jun 07” without indication of
                                                     who altered the date and when it was altered.
Conduct “post-conference” with the mine              The date on the General Information Cover
operator to discuss inspection findings and          Sheet used to document this activity was
results.                                             written as “02 Feb 07”.

District 9 supervisory staff agreed that the Field Office supervisor should have identified
the questionable dates and initiated corrective action. They said it appeared the
inspector incorrectly dated the documents and an acting supervisor did not return the


                                                             Underground Coal Mine Inspection Process
                                                   21                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


documents for correction. The inspector could not explain why he recorded January
and February dates for an inspection that started in late May. We verified that the five
noted documents were not copied from a prior inspection. However, we do not consider
this adequate support that these activities were performed during the inspection nor that
supervisory review was adequate.

Corrective Action Initiated During the Audit

MSHA initiated corrective action during the course of the OIG audit to address the
policies and procedures weaknesses we identified. In July 2007, CMS&H issued a
revised CMS&H General Inspection Handbook that included new requirements for
conducting inspections. The revised handbook significantly increased the inspection
activity documentation requirements.

In conjunction with the revised CMS&H General Inspection Handbook, MSHA initiated a
pilot ITS in all 11 coal districts for use during the inspection process. The ITS is
designed to enhance MSHA’s ability to determine inspection progress by tracking
completion of established inspection procedures as defined in the new CMS&H General
Inspection Handbook. The ITS lists critical inspection activities and requires inspectors
to document the inspection activities performed and the mine areas and equipment
inspected.

Furthermore, in response to (a) an OIG audit of MSHA’s Accountability Program (OIG
Report No. 05-07-002-06-001) and (b) the MSHA internal reviews of the Sago, Aracoma
and Darby mine accidents, MSHA plans to establish an Office of Accountability. The
purpose of the Office of Accountability will be to increase the oversight of MSHA’s
accountability and enforcement programs to ensure that necessary management
controls are fully implemented and monitored. This includes reviews of controls to
ensure inspections are completed according to MSHA policy.

Recommendations

The OIG recommends that the Assistant Secretary for MSHA establish management
controls to improve the thoroughness of regular safety and health inspections. These
management controls should ensure:

         4. Procedures for documenting all critical inspection activities are included in
            the CMS&H General Inspection Handbook and Inspection Tracking
            System.

         5. All critical inspection activities are documented as performed or not
            applicable at the mines being inspected.

         6. Field Office supervisors certify inspections are thorough before being
            counted as complete.



                                                      Underground Coal Mine Inspection Process
                                               22                 Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


         7. Inspection activity documentation and supervisory oversight are reviewed
            as part of MSHA’s Accountability Program.

Agency Response

For recommendation 4, MSHA stated that it will define the salient portions of a complete
safety and health inspection and revise the Coal Mine Inspection Procedures Handbook
to ensure documentation of all the salient portions is required. MSHA will have the
revised draft Handbook available for review and comment by March 31, 2008. MSHA
will also incorporate any necessary changes into the ITS. MSHA, however, also stated
that our analysis of critical inspection activities was flawed because MSHA’s efforts to
correct our list of critical inspection activities were unsuccessful. MSHA noted an
example of critical inspection activities that made reference to the “working place” and
“working place procedures“ as being incorrect. MSHA also noted an example where
they believed our view was that an inspection cannot be complete unless exact wording,
such as “ventilation facilities” rather than other words describing ventilation systems,
such as “intake,” are included in inspection notes and documentation.

For recommendation 5, MSHA agreed to use the ITS to document only the critical items
and elements of an inspection applicable at the individual mine being inspected. MSHA
did not agree with the part of the recommendation 5 that stated that MSHA needs to
document when a critical inspection activity is not applicable at a mine. MSHA believes
it is redundant to require documentation of inspection activities that do not apply to the
mine being inspected. MSHA suggests adding a disclaimer to the ITS report stating
that, “Systems, equipment, or processes not addressed in this report were not in use at
the mine during this inspection activity.”

For recommendation 6, MSHA discussed planned procedures for documenting that a
supervisory review of inspection records was performed. However, the response did
not address our specific recommendation to require Field Office supervisors to certify
inspections are thorough before being counted as complete. Also, MSHA stated that
much of our report hinged on a misdated form found in one of the Crandall Canyon
mine inspection reports. MSHA believes the OIG’s findings regarding this form may not
be indicative of either the quality of the inspection or the inspection report when
considered in its entirety. According to MSHA, the information required to complete the
misdated form may have been well documented in the inspection notes.

For recommendation 7, MSHA stated that its Office of Accountability will address
inspection documentation and supervisory oversight. MSHA’s Accountability Program
and associated Handbook are currently being revised and the recommendation will be
considered as the revisions are made.

OIG Conclusion

Recommendation 4 is resolved and will be closed pending receipt of the final revised
CMS&H General Inspection Handbook and ITS, due in draft by March 31, 2008. We

                                                      Underground Coal Mine Inspection Process
                                            23                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


acknowledge MSHA initiating corrective action during the audit. However, we do not
agree with MSHA’s statement that our analysis of critical inspection activities was
flawed because MSHA’s efforts to correct our list of critical inspection activities were
unsuccessful. The OIG reviewed MSHA inspection criteria (e.g., inspection and
supervisor handbooks) and met with various MSHA management and staff throughout
the audit to develop the list, which was intended solely for testing purposes. We made
adjustments to our list, based on MSHA’s input, when we believed it was appropriate.
We did not make all the adjustments MSHA management and staff requested because
opinions within MSHA often differed or were not consistent during the course of the
audit. For example, MSHA stated in its response to Recommendation 4 that our use of
the terms “working place” and “working place procedures“ was incorrect. Yet, MSHA
headquarters provided us with inspection procedures that used that specific wording
and asked us to include the procedures in our list of selected critical inspection
activities. MSHA also took issue with our understanding of mining terminology and how
it impacted our test results. During our site visits, we provided district management with
our detailed exceptions and requested feedback on our conclusions. We made
adjustments when we believed it was appropriate. Additionally, on August, 10, 2007,
we provided MSHA with a Statement of Facts detailing each exception to be included in
our report. We again requested feedback to ensure our conclusions were accurate.
MSHA did not respond to our Statement of Facts.

Recommendation 5 is unresolved. Although MSHA agreed to document the critical
elements of an inspection applicable at an individual mine, the agency did not agree to
document when a critical inspection activity was not applicable at the mine. We are not
convinced that adding a non-specific disclaimer to the ITS report provides adequate
assurance that critical inspection activities were not missed due to human error or
inspection resource limitations. Additionally, we do not believe it would be redundant or
time consuming for the inspector to check a “Not Applicable” box next to a critical
inspection activity already listed in the ITS. By entering “Not Applicable,” the inspector
actively documents that the critical inspection activity was considered but not applicable
during the inspection. A non-specific disclaimer provides no such assurance.

Recommendation 6 is unresolved. MSHA’s response did not address our
recommendation to require Field Office supervisors to certify inspections are thorough
before being counted as complete. Instead, MSHA discussed plans to require Field
Office supervisors to document their reviews by initialing and dating selected
inspections records. In our opinion, this does not provide adequate assurance that the
overall inspection was thorough. The supervisory review of the Crandall Canyon
FY 2006, Quarter 1 inspection discussed previously in this report illustrates how
supervisor initials and dates on selected inspection records alone do not provide
adequate oversight. The inspection records for this inspection were initialed and dated
by the Field Office supervisor. The supervisor found that the inspection as a whole was
incomplete and unsatisfactory. Yet, we found no evidence in the inspection records that
the deficiencies noted by the supervisor were corrected through additional inspection
work. The supervisor provided feedback to the inspector 22 days after the inspection
was completed. Requiring the supervisor to certify that the inspection was thorough


                                                      Underground Coal Mine Inspection Process
                                            24                    Report No. 05-08-001-06-001
                                         U.S. Department of Labor – Office of Inspector General


before being counted as complete would ensure that the inspection deficiencies were
corrected during the inspection.

Recommendation 7 is unresolved pending receipt of MSHA’s Office of Accountability’s
plans to address inspection documentation and supervisory oversight.




Elliot P. Lewis
November 1, 2007




                                                    Underground Coal Mine Inspection Process
                                          25                    Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                26                    Report No. 05-08-001-06-001
           U.S. Department of Labor – Office of Inspector General




Exhibits




                      Underground Coal Mine Inspection Process
            27                    Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                28                    Report No. 05-08-001-06-001
                                                    U.S. Department of Labor – Office of Inspector General


                                                                                                  Exhibit 1
                      FY 2006 Underground Coal Mine Inspection Data

The table below shows the data MSHA provided us for required and completed regular safety and health
inspections for underground coal mines during FY 2006. MSHA included mines that were in an Active,
Intermittent, or Non-Producing Active (NPA) status at the end of the fiscal year in its inspection
completion rate calculation. MSHA did not include mines in an Abandoned (Ab), Abandoned-Sealed (As),
or Temporary Idle (Ti) status at the end of the fiscal year, even though these mines had required and
completed inspections.

                      Year End                              Required                Completed
District Office       Status                                Inspections             Inspections
   1                  Active                                60                          60
                      Ab, As, Ti                            14                          13
   2                  Active                                131                        131
                      NPA                                   30                          30
                      Ab, As, Ti                            15                          15
   3                  Active                                127                        127
                      NPA                                   30                          29
                      Ab, As, Ti                            17                          16
   4                  Active                                457                        407
                      NPA                                   123                        110
                      Ab, As, Ti                            41                          35
   5                  Active                                232                        232
                      Intermittent                          3                            3
                      NPA                                   44                          44
                      Ab, As, Ti                            59                          59
   6                  Active                                373                        373
                      Intermittent                          8                            8
                      NPA                                   82                          82
                      Ab, As, Ti                            126                        126
   7                  Active                                247                        247
                      NPA                                   74                          74
                      Ab, As, Ti                            32                          32
   8                  Active                                68                          59
                      NPA                                   21                          20
                      Ab, As, Ti                            2                            2
   9                  Active                                96                           92
                      NPA                                   16                           15
 10                   Active                                48                           48
                      NPA                                   4                             4
                      Ab, As, Ti                            4                             4
 11                   Active                                32                           32
                      NPA                                   4                             4
                      Ab, As, Ti                            1                             0
Total Required and Completed                                2621                      2533

Total Ab, As, Ti (not included in calculation)               311                       302
Total Active, Intermittent, NPA (included in calculation)   2310                      2231




                                                                   Underground Coal Mine Inspection Process
                                                      29                       Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                30                    Report No. 05-08-001-06-001
                                                    U.S. Department of Labor – Office of Inspector General


                                                                                                  Exhibit 2
                      Selected Critical Inspection Activities Reviewed

The two tables below depict the 68 selected critical inspection activities we tested during our reviews of
regular safety and health inspection records in District 4 and District 6. The list was developed for test
purposes and is not intended to identify every inspection activity that should be performed and
documented during a regular safety and health inspection. The two tables, Section 1 and Section 2,
shows the 22 critical inspection steps we tested for which CMS&H policy DID REQUIRE the inspector to
document (Section 1) and the 46 critical inspection elements we tested for which CMS&H policy DID NOT
REQUIRE the inspector to document (Section 2) during a regular safety and health inspection.

SECTION 1: Selected Critical Inspection Steps for which CMS&H policy REQUIRED Documentation

                                                 GENERAL
1.      Review uniform mine file
2.      Violations documented
3.      Supervisory review
4.      Ensure that the rock dust application is adequate within the working sections
5.      Conduct a rock dust survey to within 50 feet of the section dumping point on each advancing
        point on each advancing active section of the mine
6.      Inspect surface area including impounds, surface equipment, haul roads, and prep plants (if part
        of the mine)
7.      Review books to ensure required examinations performed by certified examiner (pre-shift, on-
        shift, weekly (air courses, seals) monthly (electrical installations)

                                                   DUST
8.      Sampling of intake air at MMUs where DA have not been established and diesel-powered
        haulage equipment is in use.
9.      Determine if the mine operator performed an on-shift examination of the respirable dust control
        parameters as specified in the approved mine vent plan
10.     Assess the effectiveness of the dust control parameters stipulated in the approved ventilation
        plan
11.     At least twice during each sampling shift, verify that ALL dust control parameters stipulated in the
        approved ventilation Plan are in place and functioning properly. These checks will be initiated at
        least at the BEGINNING and BETWEEN the 4th and 5th hours of operation
12.     Collect full-shift sample from the environment of each Part 90 miner if applicable
13.     Determine if the mine operator performed an on-shift examination of the mine ventilation
        parameters as specified in the approved mine vent plan
14.     Document the results of the complete on-shift sampling (was appropriate action taken)
15.     Document the average production over the last 30 shifts and other parameters in place but are
        not in the approved plan
16.     Pittsburg lab determines the MRE equivalent dust concentration and give results via the Denver
        Computer Center (DCC) or Pittsburg Safety and Health Technology Center

                                                    NOISE
17.     Personal Noise Dosimeters and Acoustical Calibrators are required to be calibrated annually
18.     Conduct a full-shift sample on at least five miners performing different occupations, if available,
        on each MMU

                                             VENTILATION
19.     Tests for the presence of methane and oxygen deficiency
20.     If diesel equipment is being operated, measure airflow QUANTITY and tests for carbon monoxide
        and nitrogen dioxide
21.     Determine the QUALITY of the air by measuring the Quantity of airflow



                                                                Underground Coal Mine Inspection Process
                                                     31                     Report No. 05-08-001-06-001
                                                  U.S. Department of Labor – Office of Inspector General


                                                                               Exhibit 2 (Continued)
                                                 ROOF
22.    Review the Roof Control Plan and evaluate the plan by making onsite observations of the
       effectiveness of controls being installed

SECTION 2: Selected Critical Inspection Steps for which CMS&H policy DID NOT REQUIRE
Documentation

                                              GENERAL
1.     Pre-inspection conference with mine operator
2.     Post conference with mine operator
3.     In every working place in the mine inspect active haulage ways
4.     In every working place in the mine inspect entrances to abandoned workings if applicable
5.     In every working place in the mine inspect accessible old workings
6.     Inspect the air courses
7.     Inspect the escapeways (including facilities).
8.     In every working place in the mine inspect other places where miners work or travel
9.     In every working place in the mine inspect haulage facilities including hoisting equipment
10.    Inspect first aid equipment (Working sections).
11.    In every working place in the mine inspect communication installations (working section).
12.    Observe blasting practices; (working sections); if applicable
13.    In every working place in the mine inspect fire hazards
14.    In every working place in the mine inspect fire protection equipment
15.    In every working place in the mine inspect potable water
16.    In every working place in the min inspect sanitary facilities
17.    Inspect on weekends if coal produced on weekend (weekend exposure) if applicable
18.    Inspect training records including annual experienced miner, supervisor first aid, and EMT or
       MET on each shift
19.    One time during each shift inspector must travel with examiner during each type of examination

                                                     DUST
20.    Conduct a full shift sample of at least 5 occupations which will include the designated occupation
       (DO) if applicable on each MMU
21.    Collect a full-shift sample from each designated area (DA)
22.    Collect a full-shift sample from the working environment from each designated work position (DWP)
23.    Collect a full-shift sampling of at least three occupations, if available, from other active work
       positions that are currently in “D” status where the potential for high levels of coal mine respirable
       of quartz dust may exist (NDEs)
24.    Determine if compliance or noncompliance, or if sampling should continue. Additional sampling
       MUST be collected within 14 calendar days of receiving the sample results via the Sampling
       Decision Charts

                                                  NOISE
25.    Ensure the operator is in compliance with the Hearing Conservation Program
26.    Identify miners to be sampled per Noise Inspection Handbook
27.    Determine miner’s full-shift Noise Exposure per Noise Inspection Handbook Page 3-5.3
28.    Conduct a full-shift sample from a representative number of outby areas of an underground
       (Areas outside of production) miners where high levels of noise may exist
29.    Conduct a full-shift sample on at least 5 miners, if available, on the surface area of an
       underground mine where high levels of noise may exist

                                            ELECTRICAL
30.    Evaluate mine operator’s records of weekly test of underground electrical equipment



                                                              Underground Coal Mine Inspection Process
                                                   32                     Report No. 05-08-001-06-001
                                                U.S. Department of Labor – Office of Inspector General


                                                                             Exhibit 2 (Continued)
31.   In every working place in the mine inspect electrical installations
32.   Inspect high voltage installations supplying electrical installations
33.   Inspect underground high voltage circuits
34.   Inspect trolley and direct current circuits
35.   Inspect mobile equipment
36.   Inspect trailing cables
37.   In every working place in the mine inspect face and/or inby/outby electrical equipment including
      face mobile equipment, electrical components and belt starters
                                                  GAS
38.   Evaluate mine operator’s diesel exhaust gas records and compare to actual conditions in the area
      inspected
39.   Evaluate mine operator’s records of weekly methane and hazardous conditions and compare to
      actual areas in the mine inspected
40.   Evaluate the operator’s compliance with recording the tests of the Methane Monitor Calibration by
      reviewing prior records back to the ending date of the last regular safety and health inspection by
      polling miners
41.   Test for Methane and for oxygen deficiency
42.   Collect sample of mine air for analysis to determine the quality of the air with respect to noxious
      explosive gases and oxygen content

                                               VENTILATION
43.   Review mine operator’s records of daily and monthly examination of ventilation fans
44.   Inspect ventilation facilities (Surface of UG).

                                         IMPOUNDMENTS
45.   Evaluate operator records of impoundment examination per 30 CFR 77.216-3 and compare to
      actual impoundment conditions in the mine

                                                ROOF
46.   In every working place of a mine inspect roof and rib conditions




                                                            Underground Coal Mine Inspection Process
                                                  33                    Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                34                    Report No. 05-08-001-06-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                    Exhibit 3
          FY 2006 Selected Critical Inspection Activities Not Documented

The table below summarizes the test results for our sample of 21 regular safety and
health inspections completed at Districts 4 and 6 during FY 2006. The total inspection
activities not documented averaged about 10, or 15 percent of the 68 selected critical
inspection activities tested. The inspection activities not documented as required by
CMS&H policy averaged about three, or 14 percent, of the 22 inspection activities
requiring documentation tested.


 Sampled                     Total Inspection Activities        Inspection Activities Not
Inspection      District         Not Documented                 Documented as Required
     1             4                     5                                 2
     2             4                     4                                 0
     3             4                     13                                3
     4             4                     12                                4
     5             4                     4                                 3
     6             4                     5                                 1
     7             4                     3                                 1
     8             4                     14                                3
     9             6                     6                                 3
    10             6                     13                                5
    11             6                     13                                5
    12             6                     8                                 1
    13             6                     14                                5
    14             6                     15                                3
    15             6                     13                                5
    16             6                     10                                1
    17             6                     3                                 1
    18             6                     20                                4
    19             6                     12                                4
    20             6                     10                                2
    21             6                     10                                5
                Averages                 10                                3




                                                     Underground Coal Mine Inspection Process
                                           35                    Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                36                    Report No. 05-08-001-06-001
                                         U.S. Department of Labor – Office of Inspector General




                                                                                   Exhibit 4
             FY 2006 and 2007 Selected Critical Inspection Activities
                   Not Documented at Crandall Canyon Mine

The table below summarizes the four regular safety and health inspections completed at
the Crandall Canyon Mine during FY 2006 and the three regular safety and health
inspections completed at the mine during FY 2007. The total inspection activities not
documented averaged about 11, or 16 percent of the 68 selected critical inspection
activities tested. The inspection activities not documented as required by CMS&H
policy averaged about one, or five percent of the 22 inspection activities requiring
documentation tested.

    FY and Qtr (Q)        Total Inspection Activities       Inspection Activities Not
Inspection Completed          Not Documented                Documented as Required
   2006, Quarter 1              18 (26 percent)                        1
   2006, Quarter 2               9 (13 percent)                        0
   2006, Quarter 3              12 (18 percent)                        0
   2006, Quarter 4              21 (31 percent)                        6
   2007, Quarter 1                3 (4 percent)                        0
   2007, Quarter 2                5 (7 percent)                        0
   2007, Quarter 3               9 (13 percent)                        1
            Averages            11 (16 percent)                        1




                                                    Underground Coal Mine Inspection Process
                                          37                    Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                38                    Report No. 05-08-001-06-001
             U.S. Department of Labor – Office of Inspector General




Appendices




                        Underground Coal Mine Inspection Process
              39                    Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                40                    Report No. 05-08-001-06-001
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

MSHA

MSHA was established in 1978 by the Mine Act. The Mine Act transferred the Federal
enforcement program from the Department of Interior (DOI) to the Department of Labor
(DOL) and placed coal mines and metal/nonmetal mines under a single law.

As a result of the increase in coal mine fatalities in early CY 2006, the MINER Act was
signed into law on June 15, 2006. The MINER Act includes provisions for updated
emergency response plans, increased training and availability of rescue teams,
improved communication technology, and training programs for miners and mine
inspectors.

MSHA is responsible for administering the provisions of both the Mine Act and the
MINER Act. MSHA’s primary goals are (1) enforcing compliance with mandatory safety
and health standards to eliminate fatal accidents; (2) reducing the frequency and
severity of nonfatal accidents; (3) minimizing health hazards; and (4) promoting
improved safety and health conditions in the nation's mines. MSHA’s budgeted
operating costs totaled $278 million for CY 2006.

CMS&H is responsible for enforcing the Mine Act at coal mines. It administers 11
districts and 44 associated field offices with staff totaling approximately 1,175. Eight of
its 11 districts are located in the Eastern United States near coal seams located in or
near the Appalachian Mountains. CMS&H’s budgeted operating costs totaled $117
million for CY 2006.

CMS&H has jurisdiction over approximately 2,100 coal mines located in 27 states. In
Calendar Year (CY) 2006, these mines employed approximately 123,000 workers. The
recent increase in the number of fatalities in the nation’s coal mines, from 22 in CY 2005
to 47 in CY 2006, has resulted in significant media and congressional attention on
MSHA’s effectiveness in carrying out its enforcement responsibilities.

Mandatory Inspections

The Mine Act requires MSHA to perform an inspection of each underground coal mine
in its entirety at least four times per year. Title 30 of the Code of Federal Regulations,
(CFR), requires mine operators to provide a healthy and safe work environment in the
nation’s coal mines. MSHA’s primary means to ensure compliance with these
requirements is to conduct regular safety and health inspections. MSHA’s criteria for
determining how many regular safety and health inspections are required for each mine
during a year is documented in the administration’s Program Policy Manual (February
2003, 103 (a) – Mandated Inspections).




                                                       Underground Coal Mine Inspection Process
                                             41                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


Inspection Process

The Code of Federal Regulations (CFR), Title 30, provides mandatory safety and health
standards for mine operators. MSHA’s primary means to ensure compliance with the
Mine Act and the CFR is to conduct regular safety and health Inspections. These are
comprehensive inspections of coal mines that include reviewing mine records and
maps, inspecting specific mining and environmental conditions (e.g., roof, gas, dust,
ventilation, electrical, noise) and walking the entire accessible areas of the mines.

Regular safety and health inspections are performed by qualified inspectors, designated
by MSHA as Authorized Representatives (AR). To become an AR, an individual must
pass a 21-week training course, which includes formal and on-the-job training. In
addition, each AR must receive a minimum of two weeks of training every two years.

The General Coal Mine Inspection Procedures Handbook describes procedures for
CMS&H inspectors to follow when conducting inspections. The inspectors also refer to
handbooks that consist of procedures for selected inspection activities (e.g., Respirable
Dust Inspection Procedure Handbook, Electrical Inspection Procedures Handbook, and
Noise Inspection Procedures Handbook).

Inspectors generally perform regular safety and health inspections in the following
manner:

      •   Review of the Uniform Mine File – This is a file that contains all of the latest
          information on the mine to be inspected.

      •   Conduct Pre-Inspection Conference – A meeting with the mine
          representative, miners, and or union official to notify them of the type of
          inspection to be conducted.

      •   Complete In Depth Inspection Steps– This includes the review of the mine
          operator’s records and physically inspecting the underground mine.
          Violations are cited, if any.

      •   Conduct Daily or Interim Conferences – A meeting is held with the mine
          operator officials at the end of each inspection day to provide an overview of
          the results to include violations identified and cited.

      •   Conduct Post Conference - A meeting with mine operator officials is held to
          discuss the results of the inspection to include all enforcement actions taken.

      •   Complete Inspection Report – After the inspection is completed, all MSHA
          forms, field notes, citations/orders completed during the inspection are put
          together in proper sequence to form the Inspection Report.




                                                      Underground Coal Mine Inspection Process
                                            42                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


If a violation is identified, a citation and/or order is issued to the mine operator. A
description of the violation(s) and date is documented by the inspector. The citation
and/or order are terminated when the inspector determines that the violation has been
corrected. Citations and orders result in fines determined by MSHA.

Throughout the inspection process, inspectors are to document conditions, practices,
test results, and if warranted, a description of violations identified. Field office
supervisors are responsible to ensure inspections are conducted in accordance with
Agency policies and procedures. The supervisors accomplish this by reviewing work
products generated by the inspectors, dating and initialing a representative portion of
the work products, and periodically accompanying the inspectors onsite during
inspections.




                                                      Underground Coal Mine Inspection Process
                                            43                    Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                44                    Report No. 05-08-001-06-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

We performed audit work to determine whether MSHA effectively ensures regular safety
and health inspections of underground coal mines are conducted in accordance with
federal law, regulations and MSHA policy. We answered the following questions:

Objective 1: Does MSHA ensure all underground coal mines receive
             the required regular safety and health inspections?

Objective 2: Does MSHA ensure all critical inspection activities required during
             regular safety and health inspections are performed?

Scope

Our audit included MSHA inspection and oversight activity occurring in FY 2006.
However, we reviewed CMS&H inspection resource and mine activity data for FYs 1997
through 2006 for comparative purposes. We also added activity at the Crandall Canyon
Mine during FY 2006 and FY 2007. Our work related to the Crandall Canyon Mine was
not intended to determine the cause of the August 2007 fatalities.

MSHA conducts 27 types of inspections. We focused on the specific inspection type
used by MSHA to comply with the Mine Act, the regular safety and health inspection.
Regular safety and health inspections are the most comprehensive inspections
conducted of underground coal mines.

Methodology

To accomplish our objectives, we obtained an understanding of MSHA’s underground
coal mine inspection policies and procedures and of applicable federal laws and
regulations. We interviewed MSHA officials at headquarters and two district offices. In
addition, we judgmentally selected samples of regular safety and health inspections and
tested various attributes of the inspection process.

We only tested those management controls necessary to address our audit objectives.
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives.




                                                     Underground Coal Mine Inspection Process
                                           45                    Report No. 05-08-001-06-001
                                              U.S. Department of Labor – Office of Inspector General


Reliability of Data

Prior to the audit, we assessed the reliability of data in MSHA’s inspections database for
FY 2006. We judgmentally selected several fields in the database and statistically
selected samples of data from these fields. We then visited two randomly selected
CMS&H districts and compared the information in the database with the information
maintained in the district offices. The data tested was reliable. As such, we concluded
that the database was sufficiently reliable to accomplish our audit objectives.

Site Visits

We made site visits to CMS&H headquarters in Arlington, Virginia, District 4 in
Mt. Hope, West Virginia, and District 6 in Pikeville, Kentucky. We judgmentally selected
the two districts visited from among CMS&H’s 11 districts based on the volume of
regular safety and health inspections MSHA completed during FY 2006. District 6 had
the highest number of completed inspections (589) and District 4 had the second
highest (552). The two districts’ 1,141 (589+552) completed inspections represented
51 percent of the 2,231 total inspections MSHA informed us were completed for all 11
coal districts during FY 2006.

Completion of Required Inspections

To evaluate MSHA’s processes for ensuring the nation’s underground coal mines
receive the required number of inspections, we reviewed criteria established in the Mine
Act and MSHA policy. Additionally, we interviewed CMS&H officials at headquarters
and Districts 4 and 6. We then tested inspection completion data maintained in MSHA’s
Inspections Database for all 11 coal districts to determine (1) the number of
underground mines that did not receive the required number of inspections during
FY 2006 and (2) the number of required inspections that were not completed during the
year.

To determine the impact inspection resources had on inspection completions we
reviewed and compared the following data:

       •      Total CMS&H inspection resource levels and total coal mining activity during
              FYs 1997 through 2006.

       •      Total appropriated funding for CMS&H labor costs during FYs 2002 through
              2006.

       •      Inspection resource levels and coal mining activity during FY 2006 for each of
              the 11 coal districts.

We also evaluated the controls used by management to ensure underground inspection
data used for management decision making and public reporting were accurate. This
included reviewing quarterly Inspection Completion Rates reports submitted to

                                                         Underground Coal Mine Inspection Process
                                               46                    Report No. 05-08-001-06-001
                                                   U.S. Department of Labor – Office of Inspector General


headquarters by each of the 11 coal districts. Additionally, we reviewed CMS&H
policies and practices for (1) entering underground inspection data into automated
systems and (2) calculating the number of completed and required inspections to be
included in the published completion rates.

At Districts 4 and 6, we tested the accuracy of inspection completion data included in
the published completion rates. Specifically, we reviewed the records for 87 completed
inspections to determine whether the inspections were actually completed and correctly
coded. Our judgmental sample of 39 inspections at District 4 and 48 inspections at
District 6 included the following:

        •   26 inspections of mines that were actively producing coal during the
            inspections.

        •   61 inspections of mines that had relatively few (e.g. less than 8) inspection
            hours charged to the inspections.

The 87 total inspections reviewed represented eight percent of the 1,141 inspections
MSHA informed us were completed at Districts 4 and 6 during FY 2006.

Inspection Thoroughness

To evaluate MSHA’s processes for ensuring regular safety and health inspections of
underground coal mines are thorough, we reviewed inspection and oversight criteria
established in the Mine Act and MSHA policy (e.g., inspection and supervisor
handbooks) and interviewed CMS&H officials at headquarters and Districts 4 and 6.
Based on the noted criteria and the interviews, we developed a list of 68 critical
inspection activities for testing purposes. Our list of 68 selected critical inspection
activities was not intended to identify every critical inspection activity that should be
performed and documented during a regular safety and health inspection.

At Districts 4 and 6, we judgmentally selected a sample of 26 total inspections of mines
that were actively producing coal during the inspections (13 at each district). Five of the
13 District 4 inspections were cancelled before completion. As such, we reduced our
total sample size to 21. 6 We determined whether documentation existed in the
inspection files to support that the 68 selected critical inspection activities were either
completed or not applicable at the mines.

We also evaluated the controls used by management to ensure regular safety and
health inspections of underground coal mines are thorough. This included oversight at
the district level (Field Office supervisors) and headquarters level (Accountability
Program). MSHA’s Accountability Program includes headquarters and district peer
reviews of district inspection activity. Our findings relating specifically to MSHA’s


6
 The five cancelled inspections were part of 51 District 4 inspections that were cancelled but counted in
CMS&H’s inspection completion rate for FY 2006. They are discussed under Objective 1 of this report.

                                                              Underground Coal Mine Inspection Process
                                                    47                    Report No. 05-08-001-06-001
                                           U.S. Department of Labor – Office of Inspector General


Accountability Program are detailed in a separate OIG audit report, MSHA's Office of
Coal Mine Safety and Health Needs to Strengthen its Accountability Program (Report
No. 05-07-002-06-001), issued in August 2007. However, MSHA corrective action that
relates specifically to inspection thoroughness is included in this report.

Crandall Canyon Mine

Due to the fatal accidents at the Crandall Canyon Mine in August 2007, in conjunction
with Congressional and Public interest in mine safety, we reviewed inspection and
oversight activity occurring in FYs 2006 and 2007 at the Crandall Canyon Mine in this
audit. We made a site visit to the District 9 Field Office in Price, Utah. We determined
whether all the required regular safety and health inspections were completed at the
mine during FY 2006 (four inspections) and FY 2007 (three inspections). In addition,
we determined whether documentation existed in the inspection files to support that the
68 selected critical inspection activities were either completed or not applicable during
the inspections.

Criteria

We used the following criteria to perform this audit:

       •   Federal Mine Safety and Health Act of 1977, as amended

       •   General Accountability Office, Government Auditing Standards, 2003
           Revision

       •   General Accountability Office, Standards for Internal Control in the Federal
           Government, November 1999

       •   Federal Mine Safety & Health Act of 1977

       •   30 Code of Federal Regulations (CFR) Chapter 1, Subchapter G and O

       •   Program Policy Manual dated 10/23/2003.

       •   MSHA General Coal Mine Inspection Procedures Handbook dated July 2007

       •   MSHA General Coal Mine Inspections Procedures Handbook dated January
           2006

       •   MSHA Coal Mine Safety and Health Supervisor’s Handbook dated August
           1997

       •   MSHA Coal Inspection Procedures Handbook dated September 1995



                                                        Underground Coal Mine Inspection Process
                                            48                      Report No. 05-08-001-06-001
                                  U.S. Department of Labor – Office of Inspector General


•   Coal Mine Health Inspection Procedures dated March 15, 2005, Chapter 3,
    Noise

•   Coal Mine Health Inspection Procedures dated December 2005, Chapter 1,
    Respirable Dust

•   Coal Mine Electrical Procedures Handbook dated January 2006.




                                             Underground Coal Mine Inspection Process
                                   49                    Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                50                    Report No. 05-08-001-06-001
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms and Abbreviations

AR                           Authorized Representative

CFR                          Code of Federal Regulations

CMS&H                        Coal Mine Safety and Health

CY                           Calendar Year

DA                           Designated Area

DOI                          Department of Interior

DOL                          Department of Labor

FY                           Fiscal Year

ITS                          Inspection Tracking System

Mine Act                     Federal Mine Safety and Health Act of 1977

MINER Act                    Mine Improvement and New Emergency Response
                              Act of 2006

MSHA                         Mine Safety and Health Administration

MMU                          Mechanized Mining Unit

NPA                          Non-Producing Active

OIG                          Office of Inspector General




                                                Underground Coal Mine Inspection Process
                                      51                    Report No. 05-08-001-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                          Underground Coal Mine Inspection Process
                52                    Report No. 05-08-001-06-001
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix D
Agency Response to Draft Report




                                             Underground Coal Mine Inspection Process
                                   53                    Report No. 05-08-001-06-001
U.S. Department of Labor – Office of Inspector General




           Underground Coal Mine Inspection Process
 54                    Report No. 05-08-001-06-001
U.S. Department of Labor – Office of Inspector General




           Underground Coal Mine Inspection Process
 55                    Report No. 05-08-001-06-001
U.S. Department of Labor – Office of Inspector General




           Underground Coal Mine Inspection Process
 56                    Report No. 05-08-001-06-001
U.S. Department of Labor – Office of Inspector General




           Underground Coal Mine Inspection Process
 57                    Report No. 05-08-001-06-001
U.S. Department of Labor – Office of Inspector General




           Underground Coal Mine Inspection Process
 58                    Report No. 05-08-001-06-001
                                      U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

    Online:      http://www.oig.dol.gov/hotlineform.htm
    Email:       hotline@oig.dol.gov

    Telephone:   1-800-347-3756
                 202-693-6999

    Fax:         202-693-7020

    Address:     Office of Inspector General
                 U.S. Department of Labor
                 200 Constitution Avenue, N.W.
                 Room S-5506
                 Washington, D.C. 20210




                                                 Underground Coal Mine Inspection Process
                                       59                    Report No. 05-08-001-06-001
